Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
"
Washington, DC 200113

202-747-2300—
202-449-9565 Fax
LegalPrinters.com

August 6, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Yvonne O. Reignat-Vodi d/b/a Shepherds Driving School v. Maryland

Motor Vehicle Administration
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari referenced above contains 8,107 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
*

Sincerely,

ackf Suber, Esq.
Principal

LISA KAY NICHOLSON
Notary Public
j State of Maryland
' Montgomery County
My commissiofl exp. October 12,2022
l

Sworn and subscribed before me this 6th day of August 2021.

J

